5S5

No.

IN THE
SUPREME COURT OF THE UNITED STATES

^ (L^v i "RoCC

— PETITIONER

i

(Your Name)

^ R

FT Z F
Ir-i]

vs.

i

Y'; i i
— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

D'lS'WsoV COi-T/'V ] -FEW V\(CU$Vy \f)c V/V^
(NAME OF COURT THAT LAST RULED

i t-n

(Your Name)

Ho\ O sW<ul-{ ^P,
(Address)

\MasVn\oc,\ov)
(City, State, xip Code)

(Phone Number)

OFFICE OF THE CLERK
SUPREME COURT, U.S.

Si MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

I—. CiLV I

FILED
SEP 0 8 2020

Zoogj

QUESTION(S) PRESENTED

J-

«oo\ci

to

^

^ Qbl^

\)CA

^

^

<noco °v^ 'Y/V^ t$ Onq+Vor' \yi^

\ O.V4

c

YY)

^ 'fcxuvitj a.viou^ Vo oVAq,^ ^ ^

Vy

^ c,sivtr^ Q,r xh<l tocV^ Vo

0V'° • Sto ^ ^ W«,
<u^~, i-

o-V
K
->a

ncurd \q ^o>uc

i<uvy^

OV\

°1

o\

corrcLcJ^

^ c~vvV
Q \ \ ov/^

c

VV'<L

Yo

Vc,

Ca

C\

'RuC-C

\

>JcvtV\(p

Y)0\S<^

ScupV

2^0 2-0

4--. So

rv^ ^ Vm \Yio
p/b<_^55 ih

'TcCoJ "

V>p<L.O,( _ "X

do "VY\ I J c,U

V|

Coo/ y

2‘V%Q<uS^'iy S.obmi‘-V4td
l <LW|

^corvu^

y<V\r~

prOVicj qr.
CA

j

ie

3^~

<^V] CvKl

CQ}

CJcz^j-

^ Vovi
\

^pp^i n-kjtf

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was K/py/
i zxj\°i 4^
'ZjH>
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ __, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

In this appeal, he contends the evidence was insufficient to sustain his convictions
for first-degree burglary and kidnapping, and that the trial court erred in denying
his motions to exclude DNA test results and a knife found in his possession at the
time of his arrest.

Concluding that these contentions lack merit, we affirm

appellant’s convictions.

I. The Evidence at Trial

The complaining witness at appellant’s trial, whom we shall refer to as J.C.,
testified that a man wielding a silver folding knife attacked her when she arrived
home on the evening of September 14, 2013. J.C. lived at the time in one of three
apartments in a row house in Northwest Washington, D.C. Her assailant, who was
later identified as appellant, came up behind her as she was unlocking the front
door to the building. Putting his hand over her mouth and holding the knife to her
face, appellant told her not to move and to drop what she was holding. He then
pushed J.C. through the entrance into the common hallway of the row house,
followed her in, and closed the door behind them. Alone with her in the hallway,
and continuing to hold the knife to her face, appellant demanded her money. J.C.
started to hand him her debit and credit cards, but appellant slapped them away.

3

He then lifted her dress and rubbed his fingers against her genital area through her
underwear.

At that point, J.C. grabbed the hand in which appellant was holding the knife
and pushed him away. A fight ensued, during which appellant bit J.C. on her left
cheek and her back. She yelled at him to stop. He pushed her to the floor and fled
out the front door of the row house. After he was gone, J.C. went into her
apartment and called the police.

A neighbor in an apartment down the hallway heard and saw part of the
attack through the peephole of her door and called the police. The recording of
that call was played at trial. It captured over 90 seconds of the assault.

J.C. was taken to the hospital by ambulance. She was treated for the bite
wounds on her cheek and back, and for a lacerated finger (which required six
stitches) and other knife cuts on her hands. A nurse swabbed J.C.’s bite wounds
for biological evidence that could help identify her attacker.

4

After several months, the police acquired information linking appellant to
the assault.1 In August 2014, officers went to his apartment to arrest him. In a pair
of jeans that appellant asked to put on, the officers found a folding knife with a
silver blade and a black handle. Over appellant’s objection to its relevance, this
knife was admitted in evidence against him at trial, along with the parties’
stipulation that it had been in appellant’s possession “as early as November 2,
2013” (i.e., about seven weeks after the assault on J.C.).2

DNA testing identified appellant as J.C.’s assailant. Two forensic scientists
from the District of Columbia Department of Forensic Sciences (DFS) testified that
they received and tested the swabs taken from J.C.’s cheek and back wounds and a
swab taken from appellant’s cheek following his arrest in this case.

These

scientists performed the extraction, quantification, and amplification of DNA from
each of those sources and generated DNA profiles from them for subsequent
interpretation and comparison.

They did not testify to that interpretation and

1 The nature of this information was not disclosed to the jury in order to
avoid potential prejudice to appellant.
2 The stipulation was based on the fact that Mr. Ruffin had the knife in his
possession when he was arrested in November 2013 in connection with a matter
unrelated to this case. (The jury was not informed of this arrest.) The knife was
recorded at that time as appellant’s property. It was returned to appellant because
his possession of it was not unlawful.

5

comparison, however, because flaws had been detected in DFS’s statistical
computation procedures. These flaws reportedly “resulted in DFS’s overstating the
rarity of certain mixture profiles,”3 i.e., profiles obtained from samples containing
DNA from more than one person. A panel of experts convened by the United
States Attorney’s Office identified “systematic concerns with DFS’s interpretations
of forensic DNA mixtures,”4 and an ANSI-ASQ National Accreditation Board
(ANAB)5 audit of DFS likewise found serious problems with its “mixture
interpretation procedures.” The ANAB required DFS to suspend DNA testing
until it corrected the problems.

The government arranged for an accredited private laboratory, Bode
Cellmark Forensics (Bode), to interpret and compare the profiles generated by DFS
in this case. Over appellant’s objection, the court allowed Karin Crenshaw, a
forensic biologist at Bode, to testify that appellant’s DNA profile matched the

3 Barber v. United States, 179 A.3d 883, 892 (D.C. 2018) (internal
quotation marks omitted).
4 Id. at 891-92.
5 “ANSI” and “ASQ” refer to the American National Standards Institute and
the American Society for Quality.

6
foreign DNA profiles recovered from the swabs of J.C.’s back and cheek wounds.6
According to Ms. Crenshaw, the probability of randomly selecting an unrelated
African American with the same profile as that of the foreign DNA from J.C.’s
back was 1 in 450 quadrillion; and the equivalent random match probability for the
DNA from J.C.’s cheek was 1 in 4.1 sextillion.7

II. Sufficiency of the Evidence

Appellant claims the evidence was insufficient to convict him of the firstdegree burglary and kidnapping charges.

Each claim turns on a question of

statutory interpretation.

A. First-Degree Burglary While Armed

The crime of burglary in the first degree is defined in D.C. Code § 22-801(a)
(2019 Supp.) in pertinent part as follows (emphasis added): “Whoever shall . . .
6 In the profiles derived from J.C.’s wounds, Ms. Crenshaw found DNA
from only one source (the “foreign” source) besides J.C. herself.
7 J.C.’s description of her assailant had included the fact that he was a Black
man, and appellant met her description. According to Ms. Crenshaw, the
probability of finding an unrelated Hispanic or Caucasian with the foreign DNA
recovered from J.C. was even more remote.

7

enter . . . any dwelling, or room used as a sleeping apartment in any building, with
intent... to commit any criminal offense, shall, if any person is in any part of such
dwelling or sleeping apartment at the time of such . . . entering, ... be guilty of
burglary in the first degree.”8 Appellant contends there was insufficient proof that
he entered a “dwelling” to support his conviction of this crime because the
evidence at trial established that J.C.’s assailant entered only the common hallway
of her multi-apartment row house (and not also her or any other tenant’s individual
apartment). Appellant asserts that the common hallway of a residential apartment
building is not part of a “dwelling” as that term is used in the burglary statute.

The burglary statute does not define the term “dwelling,” and this is the first
time this court has been called upon to construe it. Its meaning in the statute, and
whether it encompasses a common hallway in a multi-unit residential building, are
questions of statutory interpretation that we decide de novo.9 Where, as here,
8 See also Marshall v. United States, 623 A.2d 551, 557 (D.C. 1992) (“In
order to prove armed first degree burglary, the government must establish beyond a
reasonable doubt, an armed entry . . . into an occupied dwelling with the intent to
commit a crime therein.”); Edelen v. United States, 560 A.2d 527, 529 (D.C. 1989)
(“The intent of the legislature in regard to § 22-1801(a) [now codified as § 22801(a)] is clear from the ordinary meaning of its words; the statute seeks to punish
any entry, with the intent to commit a crime, of a dwelling at a time when another
person is located anywhere within the confines of that dwelling.”).
9 Williams v. Kennedy, 211 A.3d 1108, 1110 (D.C. 2019).

8
statutory terms are undefined, we presumptively construe them according to their
ordinary sense and plain meaning, taking into account the context in which they
are employed, the policy and purpose of the legislation, and the potential
consequences of adopting a given interpretation.10

“We may also look to the

legislative history to ensure that our interpretation is consistent with legislative
intent.

These principles have guided our interpretation of other language in the

first-degree burglary statute.12 They favor giving the term “dwelling” a broad
interpretation that would render § 22-801(a) applicable here.

To begin with, the term “dwelling” is not limited to single-family
occupancies. Apartment houses and other multi-unit residential structures also are
included within standard dictionary definitions of “dwelling,” particularly when
that word is used in burglary and similar statutes. Black’s Law Dictionary, for
example, states that “dwelling” is the short form of “dwelling-house,” a term

10 See id; Chase Plaza Condo. Ass’n v. JPMorgan Chase Bank, N.A., 98
A.3d 166, 172 (D.C. 2014); Hood v. United States, 28 A.3d 553, 559 (D.C. 2011).
11 Williams, 211 A.3d at 1110 (quoting Facebook, Inc. v. Wint, 199 A.3d
625, 628 (D.C. 2019)).
12 See Edelen, 560 A.2d at 529; see also Swinson v. United States, 483 A.2d
1160, 1163 (D.C. 1984) (construing the word “building” in the second-degree
burglary statute, then D.C. Code § 22-1801(b), which is now codified as § 22801(b)).

9
meaning, in criminal law, virtually any “building . . . , part of a building . . . , or
[]other enclosed space that is used or intended for use as a human habitation. »13
We think it informative and noteworthy that a number of federal courts, tasked
under the Sentencing Guidelines with determining the “generic” meaning of
“burglary of a dwelling,” have accepted this definition.14

In construing the District’s first-degree burglary statute, we have no reason
to reject the broad ordinary meaning of “dwelling” as any enclosed space used for
human habitation, nor any reason to narrow the definition of “dwelling” to exclude
some types of habitation. Section 22-801(a) states that it applies to entries into
“any dwelling” without qualification or exception. “[TJhere is no indication in the
legislative history to the contrary.”15 Congress enacted the first-degree burglary
statute in 1967.16 As explained in the report on the bill by the Senate Committee
on the District of Columbia, up until then, “the crime of breaking and entering in
13 Dwelling-House, Black’s Law Dictionary (11th ed. 2019). This
definition adds that the term “typically includes . . . structures connected ... by an
enclosed passageway.”
14 See United States v. Garcia-Martinez, 845 F.3d 1126, 1131-32 (11th Cir.
2017) (citing cases).
15 Edelen, 560 A.2d at 529 (footnote omitted).
16 District of Columbia Crime Act of 1967, Pub. L. 90-226, tit. VI, § 602, 81
Stat. 736 (1967).

10
the District of Columbia [was] called housebreaking” and did “not distinguish
between dwellings and other premises. „17

The authorized penalty for

housebreaking, imprisonment for up to 15 years, was the same regardless of the
character of the premises.18 The 1967 enactment amended the housebreaking
statute to create two degrees of burglary and specify different minimum sentences
for each.19 The graver offense, first-degree burglary of an occupied dwelling or
sleeping apartment, carried an enhanced penalty of no less than 5 nor more than 30
years of imprisonment. Burglaries of other premises were covered by the seconddegree statute, which tracked the previous housebreaking statute and continued to
carry a maximum penalty of 15 years’ imprisonment.20

Accepting the broad, ordinary definition of “dwelling” best serves the
evident legislative purpose behind the enactment of the first-degree burglary
statute.

Burglaries of occupied residences are singled out for heightened

punishment because they “pose an increased risk of physical and psychological
17 S. Rep. No. 90-912, at 21 (1967). The previous housebreaking statute
was enacted in 1901, see 31 Stat. 1323, ch. 854, § 823 (1901), and was codified in
1967 as D.C. Code § 22-1801.
18 Id.
19 S. Rep. No. 90-912, at 21, 28.
20 Id.; see D.C. Code § 22-801(b).

11
injury.”21 In such burglaries “there is a much greater possibility of confronting the
resident and a substantial risk that force will be used and that someone will be
injured, than if one burglarized a building that was not intended for use as
• habitation, such as an office building after office hours or a warehouse.”22 This
elevated risk exists whether the human habitation in question is a single-family
home or apartment, a row house with a few units, or a multi-unit apartment
building. “[T]he unique wounds caused by residential burglary are independent of
the size or construction of the dwelling. They are the same for the mansion house
and the boarding house, the tract home and the mobile home.”23

So J.C.’s row house was a “dwelling” within the meaning of our first-degree
burglary statute. The evidence clearly sufficed to prove that her assailant entered
this dwelling with the intent to commit a crime inside it, and that someone else was
present there when he did so. This latter statutory requirement, which is not in
dispute, was satisfied in two ways. First, it suffices that J.C.’s neighbor was in the
row house even though she was in her own apartment; a residential burglary
21 United States v. Rivera-Oros, 590 F.3d 1123, 1130 (10th Cir. 2009)
(quotation marks omitted).
22 United States v. McClenton, 53 F.3d 584, 588 (3d Cir. 1995).
23 Rivera-Oros, 590 F.3d at 1130.

13
comparable to ours, “an apartment dweller’s ‘dwelling house’ does include secured
common hallways. ?>25

Appellant argues that this conclusion is foreclosed by our decision in
Edelen, in which this court held that the defendant committed first-degree burglary
when he entered the complainant’s apartment, even though he began his attack on
her in the common hallway outside her apartment.26 This argument is not correct.
In Edelen, this court had no occasion to consider, and therefore did not consider,
whether the defendant committed a first-degree burglary when he entered the
apartment building. The issue before the court was only whether his entry into the
apartment constituted a first-degree burglary.

The two possibilities are not

25 Commonwealth v. Goldoff, 510 N.E.2d 277, 281 (Mass. App. Ct. 1987);
id. at 280 (“When this historical right to security in one’s place of habitation is
considered in the context of contemporary multi-unit residential structures, we can
think of no reason why that right should not apply to tenants who reach their
apartment units by a common hallway which they have collectively secured from
the general public by a locked door. . . . These [common] areas are not open to the
public; they comprise a portion of each occupant’s dwelling house. The criminal
who unlawfully enters there violates the habitation of each of them, and each is
endangered by the possibility of confronting him or her[.]”); see also, e.g., State v.
Bowman, 311 S.W.3d 341, 345-47 (Mo. Ct. App. 2010) (citing cases from other
jurisdictions and concluding that “the common areas in an apartment building can
constitute part of the apartment ... as long as the common area in question is a
secured area not otherwise open to the public.”).
26 See footnote 24, supra.

14
mutually exclusive. Section 22-801(a) recognizes both possibilities by specifying
that a first-degree burglary can be committed by entering either “any dwelling” or
any “room used as a sleeping apartment in any building.”

We reject appellant’s restrictive interpretation of D.C. Code § 22-801(a) and
hold that the evidence was sufficient to sustain his conviction for first-degree
burglary.

B. Kidnapping While Armed

To convict appellant of kidnapping J.C. in violation of D.C. Code § 22-2001
(2019 Supp.), the government had to prove that he “intentionally seized, confined,
or carried [her] away, and that [he] held or detained [her] against her will. »27
There was ample evidence that appellant did all of those things by forcing J.C. into
the hallway of her row house, closing the door behind him, detaining her there at
knifepoint, and violently resisting her attempt to escape. Appellant contends,
however, that there was insufficient evidence to sustain his kidnapping conviction

Kaliku v. United States, 994 A.2d 765, 787 (D.C. 2010); see also Hughes
v. United States, 150 A.3d 289, 306 (D.C. 2016) (“The essence of the crime of
kidnapping is the involuntary nature of the seizure and detention.” (internal
punctuation omitted)).

16
contains no exception for cases in which the conduct
underlying the kidnapping is momentary or incidental to
another offense. . . . “[T]here is no requirement that the
victim be moved any particular distance or be held for
any particular length of time to constitute a kidnapping;
all that is required is a ‘seizing, confining’ or the like and
a ‘holding or detaining for ransom or reward ‘or
otherwise’”30
Accordingly, we hold that the evidence in this case was sufficient to sustain
appellant’s conviction for kidnapping while armed.

III. Evidentiary Rulings

A. Admission of Expert Witness Testimony on DNA Match

Appellant argues that the trial court erred in denying his pretrial motion to
preclude testimony by a DNA expert witness from Bode (Ms. Crenshaw) that was
(...continued)
would have been sufficient to sustain the kidnapping convictions at issue.
“[W]here a judgment rests on two independent and alternative rationales, both
rationales are holdings rather than dicta, even though strictly speaking neither
rationale would be essential to the resolution of the case.” Parker v. K&L Gates,
LLP, 76 A.3d 859, 878 (D.C. 2013) (McLeese, J., concurring) (citing Woods v.
Interstate Realty Co., 337 U.S. 535, 537 (1949), and Richmond Screw Anchor Co.
v. United States, 275 U.S. 331, 340 (1928)).
30 Richardson, 116 A.3d at 439 (quoting West v. United States, 599 A.2d
788, 793 n.9 (D.C. 1991)).

17
based on unreliable DNA testing data generated by DFS.

“We review a trial

court’s admission or exclusion of expert testimony for abuse of discretion and only
disturb the lower court’s ruling when it is ‘manifestly erroneous. >”31

Under

Federal Rule of Evidence 702, which now governs the admissibility of expert
opinion testimony in our courts,32 the court may allow such testimony based on a
preliminary determination of its evidentiary reliability.33 The factors the court
must consider in assessing reliability include whether the testimony is “based on
sufficient facts or data”34 and is the product of “reliable principles and methods”
that “the expert has reliably applied ... to the facts of the case. ”35

31 Dickerson v. District of Columbia, 182 A.3d 721, 726 (D.C. 2018)
(quoting Benn v. United States, 978 A.2d 1257, 1273 (D.C. 2009)).
32 This court adopted Rule 702 in Motorola, Inc. v. Murray, 147 A.3d 751
(D.C. 2016) (en banc). Although this decision was rendered after appellant’s trial,
we since have held that the holding of Motorola applies retroactively to cases
already tried but not yet final on direct appeal. See Williams v. United States, 210
A.3d 734, 743 (2019).
33 Motorola, 147 A.3d at 754 (“[T]he trial judge must . . . ensure that any
and all scientific testimony or evidence admitted is not only relevant, but reliable.”
(quoting Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 589
(1993)).
34 Fed. R. Evid. 702(b).
35 Id. 702(c), (d).

18
Federal Rule of Evidence 703, which this court also has adopted,36 permits
an expert to base an opinion on otherwise inadmissible facts or data of which the
expert has been informed “[if] experts in the particular field would reasonably rely
on those kinds of facts or data in forming an opinion on the subject.” In other
words, “the opinions of an expert witness may be based in part on hearsay or other
inadmissible information as long as the hearsay or other inadmissible information
meets minimum standards of reliability and is of a type reasonably (i.e.
customarily) relied on in the practice of the expert witness’s profession.”37 While
the court may not abdicate its gatekeeping responsibility to ensure the evidentiary
reliability of expert testimony, it typically must “accord an expert wide latitude in
choosing the sources on which to base his or her opinions. „38 In general, “a
properly qualified expert is assumed to have the necessary skill to evaluate any

36 See Motorola, 147 A.3d at 754 n.7; In re Melton, 597 A.2d 892, 901 &
n.10 (D.C. 1991) (en banc).
37 In re Amey, 40 A.3d 902, 910 (D.C. 2012).
38 Melton, 597 A.2d at 903. See also Cooper v. Carl A. Nelson & Co., 211
F.3d 1008, 1020 (7th Cir. 2000) (“[E]xperts in various fields may properly rely on
a variety of sources and may employ a similarly wide choice of methodologies in
developing an expert opinion.”)

19

second-hand information and to give it only such probative force as the

circum-

stances warrant. ”39 Therefore, “[i]n most cases,... objections to the reliability of
out-of-court material relied upon by [an expert] will be treated as affecting only the
weight, and not the admissibility, of the [expert testimony]. ”40

Applying the foregoing principles, we conclude that the trial court did not
abuse its discretion by denying appellant’s motion to preclude Ms. Crenshaw’s
testimony. In his motion, appellant cited the criticism of DFS by the ANAB and
the government’s panel of experts; argued that Bode could not “attest to the
accuracy” of DFS’s DNA test results; and asserted (without evidence) that “it is
not customary for an analyst from one DNA lab to simply review” and draw
conclusions from raw test data provided by another lab.

But the government

39 Melton, 597 A.2d at 903. See also Kinser v. Gehl Co., 184 F.3d 1259,
1275 (10th Cir. 1999), abrogated on other grounds by Weisgram v. Marley Co.,
528 U.S. 440 (2000) (describing the rationale under Rule 703 for allowing experts
to testify to opinions based on evidence that is itself inadmissible as premised on
the notion that “experts in the field can be presumed to know what evidence is
sufficiently trustworthy and probative to merit reliance.”).
40 Melton, 597 A.2d at 903-04. See also Hose v. Chicago N. W. Transp. Co.,
70 F.3d 968, 974 (8th Cir. 1995) (“As a general rule, the factual basis of an expert
opinion goes to the credibility of the testimony, not the admissibility, and it is up to
the opposing party to examine the factual basis for the opinion in crossexamination.”).

20

successfully rebutted these contentions. It proffered the ANAB audit report and
other documentation showing, as the court found, that the criticisms of DFS
pertained only to its statistical interpretation of DNA data, not DFS’s procedures
for generating that data.41 The court was given no reason to think that the data
furnished by DFS to Bode was unreliable. In addition, the government provided an
affidavit in which Natalie Morgan, Bode’s Director of Forensic Casework, averred
that “independent analysis and review of another Lab’s data is routinely completed
in the forensic DNA field,” and that Bode itself performs such “independent
analysis/interpretation” in 20-30 cases per year.42 No evidence contradicted this
averment. It supported the court’s finding that, contrary to appellant’s assertion,
the data furnished by DFS was “the type of evidence that experts customarily rely
on.”

41 The report prepared by the panel of experts convened by the United States
Attorney’s Office was not submitted to the trial court in this case and is not in the
record before us. In its stead, the government submitted a copy of a discovery
letter conveying the substance of the panel report and also reporting that a member
of the panel had reviewed DFS’s work in this particular case and had “concluded
that there were no specific issues which impact the DNA results.” See also
Barber, 179 A.3d at 893-94 (explaining that none of the concerns with DFS’s work
“cast doubt on DFS’s actual testing of the DNA samples in this case or any other
case sampled”).
42 Ms. Morgan defined “analysis/interpretation” as including “making
comparisons” between DNA profiles.

21
At trial, appellant was able to cross-examine the government’s three expert
witnesses to identify any problems with the data and challenge the reliability of the
DNA testing and analysis. The jury received an accurate picture of each expert’s
role. All three witnesses agreed that the issues raised by ANAB did not concern
the procedures followed by the two DFS witnesses to generate the “raw data” sent
to Bode in this case. Appellant elicited no evidence to the contrary. The two DFS
witnesses described in detail the steps they followed to generate that raw data,
including the measures followed to ensure the reliability of the results.

Ms.

Crenshaw testified that these steps were shown in the data she received and
reviewed, and that it would have been evident to her from the “raw data” if those
steps had been performed improperly. She found no problems or irregularities.
This testimony was not impeached or contradicted.

We conclude that the trial court did not abuse its discretion in allowing Ms.
Crenshaw to testify, and in trusting the jury to evaluate the reliability of her
opinion and the information on which it was based.

B. Admission of the Knife

Appellant contends the trial court erred by admitting the knife recovered
from his jeans pocket into evidence. He argues that the knife was irrelevant

22

because it did not match J.C.’s description of the one her assailant used and there
was no other proof linking the knife to the assault. In overruling appellant’s
objection to the knife’s relevance, the trial court found that the discrepancy
between J.C.’s description and the appearance of the knife went to the weight of
the evidence but did not render it inadmissible. We agree.

“Evidence is relevant if it has ‘any tendency to make the existence of any
fact that is of consequence to the determination of the action more probable or less
probable than it would be without the evidence.’”43

“The trial court enjoys

particularly broad discretion in determining the relevance of a piece of evidence
because the inquiry is fact-specific and proceeds under a flexible standard. ”44 Such
a “highly discretionary” determination “will be upset on appeal only upon a
showing of grave abuse.”45 We can find no such abuse here.

“An accused person’s prior possession of the physical means of committing
the crime is some evidence of the probability of his guilt, and is therefore
43 Plummer v. United States, 813 A.2d 182, 188 (D.C. 2002) (quoting Street
v. United States, 602 A.2d 141, 143 (D.C. 1992)).
44 Richardson v. United States, 98 A.3d 178, 186 (D.C. 2014).
45 Riddick v. United States, 995 A.2d 212, 216 (D.C. 2010) (internal
quotation marks and citations omitted).

23
admissible. ”46 It is relevant and admissible as “direct and substantial proof of the
crime charged”47 if the weapon is “linked to both the defendant and the crime” and
the connection is not “too remote or conjectural.”48 In this case, two factors bear
on the issue of relevance - whether the knife’s appearance matched J.C.’s
description, and whether appellant was in possession of it around the time of the
•
49
crime.

As to the first factor, J.C. reported that her assailant wielded a silver folding
knife. The knife recovered from appellant’s jeans was a folding knife with a silver
blade and a black handle. Although J.C. did not mention a black handle, the court
reasonably could find that the recovered knife matched J.C.’s general description,

46 Coleman v. United States, 379 A.2d 710, 712 (D.C. 1977). Our cases
repeatedly have recognized this point. See, e.g., Jones v. United States, 127 A.3d
1173, 1185 (D.C. 2015); Daniels v. United States, 2 A.3d 250, 262 (D.C. 2010);
Busey v. United States, 1A1 A.2d 1153, 1165 (D.C. 2000).
47 Jones, 127 A.3dat 1184.
48

King v. United States, 618 A.2d 727, 728-29 (D.C. 1993) (quotation
marks omitted).
49 Jones, 127 A.3d at 1185 (“Ultimately, the admissibility of evidence of a
defendant’s prior possession of the weapon or type of weapon used in a charged
offense turns on a consideration of the temporal proximity of the incidents of prior
possession to the charged offense and a comparison of the appearance of the
weapon previously possessed by the defendant with that of the weapon actually
used in the charged offense.”).

24

especially given the obvious likelihood that the handle of the knife was not clearly
visible to J.C. when her attacker was grasping it and threatening her with it.50
Appellant argues that J.C. was not shown appellant’s knife and never identified it
as being, or looking like, the knife held by her assailant. The absence of such an
identification does not diminish the probative value of the fact that the knife fit
J.C.’s general description of the weapon. As to the second factor, although the
police did not find the knife until they arrested appellant eleven months later,
appellant stipulated that he had it in his possession at a time only seven weeks after
the crime was committed. This was not so long after the crime* as to deprive the
evidence of any probative value.51 We think the trial court fairly could conclude
from these facts that appellant’s possession of the knife was “some evidence of the
probability of his guilt” and therefore relevant.52 “It is true that the evidence
established only a reasonable probability, and not a certainty,” that appellant

50 See, e.g., Williams v. United States, 106 A.3d 1063, 1069 (D.C. 2015)
(upholding admission of evidence that the defendant’s weapon met “the same
general description as the one used in the charged offense”); Daniels, 2 A.3d at
254, 262 (upholding admission of testimony that defendant had been seen with a
black gun and a silver gun where witnesses had described murder weapon as either
black or silver).
51 In some cases, evidence of a defendant’s possession of the weapon used
in a charged offense has been held admissible even though many months separated
the possession from the crime. See Jones, 127 A.3d at 1186 (citing cases).
52 Busey, 747 A.2d at 1165 (quotation marks omitted).

25
possessed the knife used in the assault on J.C.53 “But the connection of the [knife]
with the [assault] was not ‘conjectural and remote,’ . . . and so the lack of certainty
goes to the weight of the evidence, not its admissibility. 5554

Appellant argues that any probative value the knife had was outweighed by
the danger of prejudice, which he identifies on appeal only as the implication that
“he was a violent man who carried a knife.”55 Appellant faults the trial judge for
failing to balance the danger of such prejudice against the limited probative value
of the knife.

The point is not well-taken, however. “In general, if evidence is relevant, it
should be admitted unless it is barred by some other legal rule. 5556 In other words,
upon a finding of relevance, the knife was presumptively admissible. It is true that ,
relevant evidence may be excluded, in the trial court’s discretion, if the court finds
that its probative value is substantially outweighed by a danger of unfair

53 Id.
54 Id. (quoting Burleson v. United States, 306 A.2d 659, 662 (D.C. 1973)).
55 Brief for Appellant at 43.
56 In re L.C., 92 A.3d 290, 297 (D.C. 2014).

26
prejudice.57 Thus, if a defendant identifies a risk of unfair prejudice from proffered
evidence and explains how that risk outweighs the probative value of the evidence,
the judge must balance the probative value of the evidence against that risk. But
“[jjudges are not clairvoyant. ”58 The responsibility to identify the risk and raise
the issue of unfair prejudice with specificity for the judge’s consideration is on the
party seeking protection from it - meaning, in this case, on appellant.59 It is not the
judge’s role to assume that responsibility, snoop cut the facts, and construct the
argument for the litigant. Yet when the relevance of the knife was argued and
decided in this case, appellant did not argue that it posed any risk of unfair

57 Johnson v. United States, 683 A.2d 1087, 1100 (D.C. 1996) (en banc)
(adopting Federal Rule of Evidence 403). The term “unfair prejudice” means the
evidence has “an undue tendency to suggest decision on an improper basis,
commonly, though not necessarily, an emotional one.” Comfora v. United States,
947 A.2d 1181, 1187 (D.C. 2008) (citations omitted).
58 Williams v. Dieball, 724 F.3d 957, 963 (7th Cir. 2013).
59 See Comford, 947 A.2d at 1188-89 (holding that defendant did not
preserve Rule 403 claim “effectively” where, though he cited the Rule, he gave the
trial judge “no reason at all why” the testimony he moved to exclude “would be
irrelevant or unfairly prejudicial, or why the risk of unfair prejudice would
substantially outweigh its probative value”); see also Williams, 724 F.3d at 962
(claim that trial court erred by admitting evidence without balancing its probative
value against prejudice as required by Rule 403 held forfeited where motion in
limine “did nothing more than give a barebones recitation of the relevant standard”
and “then conclusorily state that it was met” with no explanation of “how or why
the balancing test should result in exclusion”).

27

prejudice at all.60 Nor, in our view, was any such risk apparent. Contrary to
appellant’s unsupported claim (made for the first time on appeal), appellant’s mere
possession of the (concededly lawful) knife did not brand him as a “violent”
individual. The knife was not inflammatory evidence calculated to appeal to the
jury’s emotions and prejudice the jury against appellant. And as the judge stated
when rendering her decision that the knife was relevant, appellant could challenge
its probative value through cross-examination.

We conclude that the trial court did not abuse its discretion by admitting the
knife into evidence.

IV. Conclusion

For the foregoing reasons, we affirm the judgment of the Superior Court.

60 Appellant’s written motion to exclude the knife contained nothing beyond
a perfunctory, half-sentence assertion in passing that “introduction of the knife is
more prejudicial than probative.” The issue of prejudice versus probative value
was not mentioned at all in the argument on the motion.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

l—(L-V i Q)Q2 1 vq
Date:

1

2Q?Q

